No.
IN THE
UNITED STATES SUPREME COURT

DANIEL L. MILES, ON OWN BEHALF AND ON BEHALF OF OTHERS AS A CLASS,
Petitioner,
v.
KRISTINE L. SVINICKI, SUCCESSOR TO STEPHEN G. BURNS, SUCCESSOR TO ALLISON M.
McFARLANE, SUCCESSOR TO GREGORY B. JACZKO, SUCCESSOR TO DALE E. KLEIN,
SUCCESSOR TO NILS J. DIAZ, CHAIRMAN, U S. NUCLEAR REGULATORY COMMISSION,
Respondent.

CERTIFICATE OF COMPLIANCE WITH WORD LIMITATIONS

Pursuant to Supreme Court Rule 33.1(h), I hereby certify that the petition for a writ of certiorari
contains 6060 words, excluding the parts of the petition that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on July 28, 2020
;
;

Daniel L. Miles
Petitioner, Class Agent and
Private Attorney General
17 North Taft Ave
Hillside IL 60162
708-466-8942

>
!

OFFICIAL SEAL
JENNIFER MUNGER

\

NOTARY PUBLIC -STATE OF ILLINOIS ;
MY COMMISSION EXPIRES:10/16/23 <

